No.
IN THE SUPREME COURT OF THE UNITED STATES
JUSTIN CORLISS,
Petitioner
v.
SUPERINTENDENT COAL TOWNSHIP, SCI, et al,
Respondents
PROOF OF SERVICE
I, Justin Corliss, do swear or declare that on this date, July 31,
2021, as required by Supreme Court Rule 29 I have served the enclosed
APPLICATION TO FILE THIS PETITION FOR CERTIORARI ON 8V2"
x 11" PAPERS and PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid within 3 calendar days. The
names and addresses of those served are as follows:
Michael T. Rakaczewski
Monroe County District Attorney's Office
610 Monroe Street
Suite 126
Stroudsburg, PA 18360
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 31, 2021

Justin Corliss

